<html>
<title> - GENERAL SERVICES ADMINISTRATION CHECKING IN WITH THE GOVERNMENT'S ACQUISITION AND PROPERTY MANAGER</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]



 
                GENERAL SERVICES ADMINISTRATION	CHECKING

                  IN WITH THE GOVERNMENT'S ACQUISITION

                          AND PROPERTY MANAGER

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                         GOVERNMENT OPERATIONS

                                 OF THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 15, 2018

                               __________

                           Serial No. 115-70

                               __________

Printed for the use of the Committee on Oversight and Government Reform




 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
 
 
 


         Available via the World Wide Web: http://www.fdsys.gov
                       http://oversight.house.gov
                       
                       
                       
                       
                            _________ 
                                  
                U.S. GOVERNMENT PUBLISHING OFFICE
 30-939 PDF             WASHINGTON : 2018                           
                       
                       
                       
                       
              Committee on Oversight and Government Reform

                  Trey Gowdy, South Carolina, Chairman
John J. Duncan, Jr., Tennessee       Elijah E. Cummings, Maryland, 
Darrell E. Issa, California              Ranking Minority Member
Jim Jordan, Ohio                     Carolyn B. Maloney, New York
Mark Sanford, South Carolina         Eleanor Holmes Norton, District of 
Justin Amash, Michigan                   Columbia
Paul A. Gosar, Arizona               Wm. Lacy Clay, Missouri
Blake Farenthold, Texas              Stephen F. Lynch, Massachusetts
Virginia Foxx, North Carolina        Jim Cooper, Tennessee
Thomas Massie, Kentucky              Gerald E. Connolly, Virginia
Mark Meadows, North Carolina         Robin L. Kelly, Illinois
Ron DeSantis, Florida                Brenda L. Lawrence, Michigan
Dennis A. Ross, Florida              Bonnie Watson Coleman, New Jersey
Mark Walker, North Carolina          Raja Krishnamoorthi, Illinois
Rod Blum, Iowa                       Jamie Raskin, Maryland
Jody B. Hice, Georgia                Jimmy Gomez, Maryland
Steve Russell, Oklahoma              Peter Welch, Vermont
Glenn Grothman, Wisconsin            Matt Cartwright, Pennsylvania
Will Hurd, Texas                     Mark DeSaulnier, California
Gary J. Palmer, Alabama              Stacey E. Plaskett, Virgin Islands
James Comer, Kentucky                John P. Sarbanes, Maryland
Paul Mitchell, Michigan
Greg Gianforte, Montana

                     Sheria Clarke, Staff Director
                  Robert Borden, Deputy Staff Director
                    William McKenna, General Counsel
                    Richard Burkard, Senior Counsel
                         Kiley Bidelman, Clerk
                 David Rapallo, Minority Staff Director
                                 ------                                

                 Subcommittee on Government Operations

                 Mark Meadows, North Carolina, Chairman
Jody B. Hice, Georgia, Vice Chair    Gerald E. Connolly, Virginia, 
Jim Jordan, Ohio                         Ranking Minority Member
Mark Sanford, South Carolina         Carolyn B. Maloney, New York
Thomas Massie, Kentucky              Eleanor Holmes Norton, District of 
Ron DeSantis, Florida                    Columbia
Dennis A. Ross, Florida              Wm. Lacy Clay, Missouri
Rod Blum, Iowa                       Brenda L. Lawrence, Michigan
                                     Bonnie Watson Coleman, New Jersey
                                     
                                     
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on February 15, 2018................................     1

                               WITNESSES

The Honorable Emily W. Murphy, Administrator, General Services 
  Administration
    Oral Statement...............................................     4
    Written Statement............................................     7
The Honorable Alan B. Thomas, Jr., Commissioner, Federal 
  Acquisition Service, General Services Administration
The Honorable Dan Mathews, Commissioner, Public Buildings 
  Service, General Services Administration
The Honorable Carol F. Ochoa, Inspector General, General Services 
  Administration
    Oral Statement...............................................    17
    Written Statement............................................    19

                                APPENDIX

Letter for the Record from The Honorable Carol F. Ochoa to Mr. 
  Meadows........................................................    50
Questions for the Record to GSA, submitted by Members of the 
  Committee......................................................    54


                    GENERAL SERVICES ADMINISTRATION-



   CHECKING IN WITH THE GOVERNMENT'S ACQUISITION AND PROPERTY MANAGER

                              ----------                              


                      Thursday, February 15, 2018

                   House of Representatives
              Subcommittee on Government Operations
               Committee on Oversight and Government Reform
                                                     Washington, DC
    The subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 2154, Rayburn House Office Building, Hon. Mark Meadows 
presiding.
    Present: Representatives Meadows, Massie, Blum, Connolly, 
Maloney, Norton, Clay, and Lawrence.
    Mr. Meadows. The Subcommittee on Government Operations will 
come to order.
    Without objection, the Chair is authorized to declare a 
recess at any time.
    And just for planning purposes, I think we are going to 
have votes around 11:30 today, so it is my intention to make 
sure we get out of here before the vote so that you don't have 
to, well, just hang out in a hearing room for an hour or so 
while we go to vote. So if you will keep your oral testimony as 
brief as possible but certainly not over the 5 minutes, Mr. 
Connolly and I have agreed to try and manage that expectation 
to make sure that we get out of here and still have a robust 
hearing but try to keep it succinct, if we can.
    I am pleased to hold the oversight hearing for the General 
Services Administration, or GSA as it is commonly known. 
Obviously, GSA plays a vital role in providing real estate 
acquisitions and technology services to Federal agencies. For 
some of you, this is not your first rodeo. You are back with 
us. Thank you so much and welcome.
    With respect to the Federal real properties, GSA owns or 
leases over 9,600 buildings. GSA has made some progress in 
reducing the Federal footprint, but GSA is still relying too 
much on costly leases, in my opinion. Total government leases 
for Fiscal Year 2016 were well over $7 billion. So as we look 
at that, I am anxious to hear testimony on how we are going to 
address that.
    The Public Buildings Reform Board, which was created by 
FASTA, has been invested with a unique authority to identify 
and dispose of Federal real properties, and I understand that 
GSA is working to make the board operational, and I hope board 
members will be nominated quickly, and that is quickly in terms 
of standards on Main Street, not on K Street. So that would 
mean expeditiously, if we can do that.
    On the acquisitions side we continue to hear that the 
Federal acquisition system fails to leverage the benefits of 
truly buying commercial, so we look forward to hearing on that.
    And, instead the Federal procurement system is so complex 
and slow and often burdened with government unique regulatory 
requirements, making it difficult for the government to buy 
goods and services at the best price and in a timely manner. 
Over 20 years ago, Congress established a preference for using 
commercial items and using standard commercial terms and 
conditions to maximize the extent practicable, and yet the 
complexity seems to have increased over recent years.
    I am going to keep my opening remarks as brief as I 
possibly can, but as we look at that, I will be interested to 
hear about the role of 18F going forward and GSA's role in 
promoting the IT modernization and implementing the Government 
Technology Act.
    Finally, I would like to touch on the Regulatory Task Force 
work by GSA. I was encouraged by the GSA's October 2017 
testimony that GSA was working on ways to remove outdated 
requirements in the GSA acquisition regulation, and was also 
focused on the property management and travel regulations.
    So with all of that, I look forward to this being an 
illuminating hearing as we continue to move forward in making 
sure that our government is efficient and effective.
    With that, I will recognize the Ranking Member, Mr. 
Connolly, for his opening remarks.
    Mr. Connolly. I thank my friend, and thank you for calling 
today's hearing on the General Services Administration.
    GSA is not an agency that many Americans are familiar with, 
but its role in providing other Federal agencies with goods and 
services is essential to leveraging the Federal Government's 
buying power, to find efficiencies, and to save taxpayer 
dollars.
    The Federal Acquisition Service helps agencies procure 
office supplies and telecommunication information technology 
services, among other items, and hopefully we will get the 
Pentagon to cooperate with that.
    GSA's Public Building Service acts as the government's 
landlord, helping agencies acquire and manage office space 
throughout the country.
    For the past six years, GSA has been working with the 
Federal Bureau of Investigation to help the Bureau find a 
replacement for its headquarters, which was described to 
Congress and the public as no longer adequate in helping the 
FBI fulfill its mission. This week, GSA announced that it will 
abandon entirely a plan to fully consolidate the headquarters 
of the FBI in favor of a more decentralized approach that 
involves the demolition and rebuilding of the J. Edgar Hoover 
building in Washington, D.C. at its current site. This followed 
a decision announced in July that cancelled the procurement of 
a new consolidated FBI headquarters in either Virginia or 
Maryland.
    These announcements constitute a body blow to public 
confidence in the Federal Government's ability to effectively 
manage a building procurement on the scale of the proposed FBI 
headquarters. The Federal Government comes off as unreliable 
and whimsical, at best. What damage has this done to faith in 
the Federal procurement process? What has the cost been to the 
private businesses, localities, and states that in good faith 
participated in this competition?
    The procurement process alone cost GSA, we believe, $20 
million, with nothing to show for it. But cost to the FBI has 
not been disclosed, and even that information would not provide 
a comprehensive accounting of the taxpayer dollars wasted on 
this project. For that, we would have to include the 
uncertainty developers will now price into all future business 
involving large-scale Federal real property procurements and 
doing business with GSA.
    The decision has also had an impact on the hard-working men 
and women of the FBI who fight every day to keep our country 
safe. FBI's current headquarters is, by every account, in 
disrepair and literally crumbling around its employees and on 
the walking public outside. We have to put netting outside the 
building because parts of it are crumbling. Instead of a new 
consolidated approach near home here in the D.C. region, some 
of those employees now face continued uncertainty about the 
project and the potential relocation elsewhere.
    The new GSA proposal is full of contradictions and flies in 
the face of a decade's worth of analysis by both the GSA and 
the Government Accountability Office. The problems with GSA's 
proposal are numerous, but one need only examine the economics 
and security aspects to raise serious questions about this 
decision.
    In July of last year, GSA blamed the inability to secure 
congressional appropriations for Fiscal Year 2018 for 
cancelling the project, a laughable explanation because, in 
fact, Congress offered money and offered money not even 
requested, and it was quite clear that on a bipartisan basis 
Congress would have provided the necessary funds for going 
forward with that project.
    So what is the agency's proposed solution to that problem? 
Apparently, they are going to rely on Congress, a $2.2 billion 
appropriation request buried in the President's infrastructure 
plan, a farce within a farce.
    GSA's estimate of cost savings with this new plan are also 
overblown. The new plan is supposedly $200 million cheaper than 
the previous plan to consolidate the headquarters in one 
location. However, the cost estimate for demolish and rebuild 
will likely increase, almost certainly will increase as the 
project is further vetted, just as the estimate for the 
original consolidation project did.
    This new plan completely contradicts earlier plans that 
deemed the consolidation of the FBI components across the 
national capital region crucial to national security. 
Apparently, that is out the window. This new proposed plan 
would ensure that the FBI is one of the only members of the 
intelligence and antiterrorism community that does not have a 
stand-alone campus. So all of the concerns about the physical 
security and the urban setback risk at the current site also 
thrown out the window.
    CIA, DIA, NSA, and Homeland Security all have their own 
campuses which help mitigate physical and espionage threats, 
but not the FBI under this new plan. The question must be 
asked: If this decision has been informed by all of the 
Administration's belief that the Federal workforce should be 
less concentrated in Washington, D.C. and more dispersed across 
the country, efficiencies, cost savings, and national security 
apparently be damned.
    Alternatively, maybe it is motivated by the fact that if 
GSA had gone ahead with their original plan, the Hoover site 
would have been turned into a private development that would 
have directly competed with the Trump Hotel for the entirety of 
the lease agreement. Developing the Hoover site into a mixed-
use retail hotel and residential development could have clearly 
impacted the bottom line of the President of the United States.
    These questions hang in the air. The lack of transparency 
on the part of GSA in this process is partly because it has not 
worked with Congress to keep us informed and has stonewalled 
even basic requests from this committee. GSA's resistance to 
oversight not only prevents Congress from performing its 
constitutional functions, it leads to stalled projects and 
appropriations, wasted taxpayer dollars, and public distrust.
    There will be a long-term cost to the profoundly bungled 
procurement of the new FBI headquarters. It will be difficult 
to quantify, but we can all be sure the American taxpayer will 
have to be forced to pick up the tab.
    Thank you, Mr. Chairman.
    Mr. Meadows. I thank the gentleman for his opening 
statement.
    I am now pleased to introduce our witnesses.
    We have as a witness today the Honorable Emily W. Murphy, 
Administrator of the General Services Administration. Welcome.
    The Honorable Alan B. Thomas, Jr., Commissioner of the 
Federal Acquisition Service at GSA. Welcome, Mr. Thomas.
    The Honorable Dan Mathews, Commissioner of Public Buildings 
Service at GSA.
    And the Honorable Carol F. Ochoa, Inspector General at GSA.
    Welcome to you all.
    Pursuant to committee rules, all witnesses will be sworn in 
before they testify, so if you would please rise and raise your 
right hand.
    [Witnesses sworn.]
    Mr. Meadows. All right, thank you. You may be seated.
    Please, the record will reflect that all witnesses answered 
in the affirmative.
    In order to allow time, as I mentioned earlier, for 
discussion, please limit your oral testimony to 5 minutes, but 
certainly your entire written statement will be made part of 
the record.
    Ms. Murphy, you are now recognized for 5 minutes.

                       WITNESS STATEMENTS

           STATEMENT OF THE HONORABLE EMILY W. MURPHY

    Ms. Murphy. Good morning, Chairman Meadows, Ranking Member 
Connolly, and members of the subcommittee. My name is Emily 
Murphy, and I am the new Administrator of the General Services 
Administration. With me today are Dan Mathews, Commissioner of 
the Public Buildings Service, and Alan Thomas, Commissioner of 
the Federal Acquisition Service. Thank you for your invitation 
to testify.
    GSA's mission is to deliver value and savings in real 
estate acquisition, technology, and other mission support 
services across the government. Today, GSA provides critical 
space to Federal agencies in nearly 8,700 buildings. 
Additionally, GSA facilitated $55 billion in acquisitions in 
Fiscal Year 2017. This includes $31 billion directly from GSA's 
Multiple Award Schedules Program.
    As Administrator, my vision for GSA can be distilled into 
four principles: ethical leadership; reducing duplication; 
increasing competition; and improving transparency. In the 
spirit of reducing duplication, I won't subject you to 
additional testimonies from either Commissioner Mathews or 
Commissioner Thomas. Allow me to spend a few minutes discussing 
some of these principles with examples of some of GSA's work.
    Given the major role GSA plays in managing real estate and 
overseeing acquisition, we strive to ensure the American 
taxpayer is put first in all that we do. To accomplish this, 
GSA must have a culture that values contributions from all 
employees and is built on a strong foundation of ethical 
conduct.
    One of my first acts at GSA was to quadruple the amount of 
ethics training required for political appointees at GSA and 
then to work with the Inspector General to establish specific 
training for appointees by her office. Ensuring that senior 
staff are held to the highest standards helps instill a culture 
of integrity throughout the agency.
    Additionally, I have sat on the benches behind you as a 
Hill staffer for nine years, and let me state unequivocally 
that I strongly believe in the value of oversight and will be 
as forthcoming as possible with regard to all oversight 
requests. I also plan to rely heavily on the work of the 
Inspector General and GAO.
    Ms. Ochoa and I have monthly meetings, and she and her team 
provide valuable reporting that helps make GSA better. I look 
forward to meeting with the representatives in the GAO in the 
coming weeks.
    My second principle is reducing duplication. Keeping in 
mind our role as stewards of taxpayer dollars, it is essential 
that GSA identify ways to reduce duplication within our agency 
and across the Federal Government. For real property disposal 
and cost consolidation, GSA is leading by example. In the last 
five years, the agency has reduced the size of GSA's occupied 
space by 40 percent. GSA also helped its customers reduce their 
occupancy in GSA-controlled space by over 2 million square feet 
in Fiscal Years 2015 and 2016. In Fiscal Year 2017, we 
partnered with Federal agencies to dispose of 123 non-
performing or vacant assets government-wide, which generated 
$115 million in gross proceeds.
    Regarding IT modernization, last year we began establishing 
five Centers of Excellence. These Centers of Excellence will 
accelerate the modernization of IT infrastructure across the 
Federal Government by leveraging private-sector innovation and 
encouraging collaboration across agencies.
    My third principle is to increase competition. Whether 
looking to buy a product or acquire a new lease, the greater 
the competition, the greater the value to the taxpayer. In 
public buildings over the next five years, 100 million square 
feet of lease will expire, meaning we will need to reevaluate 
housing solutions for 55 percent of our lease portfolio. This 
creates a unique opportunity to promote market competition.
    On the acquisition side, GSA has developed tools to 
encourage competition at the contract level. One example is the 
Schedule 70 springboard, which has already helped 32 innovative 
IT companies with fewer than two years of experience to join 
the Schedule 70.
    Finally, Congress provided GSA and other Federal agencies 
with the critical tool when it passed the Modernizing 
Government Technology Act. This legislation encourages agency 
IT innovation and will create successful templates that other 
agencies can follow.
    My fourth principle is transparency. Transparency helps 
expose flaws, instills trust in our workforce and among our 
partners, and can lead to better competition, more informed 
policy, and strong accountability. In accordance with FASTA, 
GSA released the Federal Real Property Profile public data set, 
which contains detailed information on more than 300,000 
Federal assets. Making this data public helps reduce costs, 
increases utilization, and incentivizes Federal agencies to 
achieve greater efficiency.
    It is my hope that you have a clear understanding of the 
conviction that Dan, Alan and I bring to our roles at GSA. 
Thank you for the opportunity to be here today. We look forward 
to answering your questions.
    [Prepared statement of Ms. Murphy follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
   
    
    Mr. Meadows. Thank you, Ms. Murphy.
    Ms. Ochoa, you are recognized for 5 minutes.

           STATEMENT OF THE HONORABLE CAROL F. OCHOA

    Ms. Ochoa. Chairman Meadows, Ranking Member Connolly, and 
members of the subcommittee, good morning and thank you for 
inviting me to testify.
    The Office of Inspector General strives to protect taxpayer 
dollars. In Fiscal Years 2015 through 2017, our criminal, 
civil, and administrative recoveries totaled $436 million. In 
addition, last year alone, OIG auditors identified more than 
$287 million in questioned costs and funds that GSA can put to 
better use. We produced these results, and more, on an annual 
appropriation of $65 million.
    Each year we provide GSA with a summary of what we consider 
to be the most serious management challenges the agency faces. 
I would like to highlight four of the challenges we identified 
for Fiscal Year 2018.
    We included enhancing government procurement as a 
challenge. Our auditors have identified concerns with the 
variability and the reasonableness of prices the Federal 
Government pays in the GSA Schedules Program. For example, a 
recent audit found that GSA offered identical items on its IT 
schedule at widely varying prices, and that lower prices were 
available on the commercial market for many of these items.
    We also reported that GSA's contract consolidation process 
resulted in the award of new professional service contracts 
worth more than $2 billion in annual sales without first 
determining price reasonableness.
    GSA is attempting to address these concerns through a 
variety of pricing initiatives. The OIG has ongoing audits of 
these initiatives and will remain vigilant in this area.
    GSA's Public Buildings Service is challenged to maximize 
the performance of its real property inventory. In its space 
consolidation efforts, GSA must ensure that select projects 
that will achieve measureable benefits for the taxpayer.
    For example, while GSA's tenants may benefit from a reduced 
footprint lower lease costs, GSA risks significant losses if it 
cannot backfill vacated space that remains under lease. We are 
auditing GSA's management of vacant leased space to determine 
whether the agency is accurately reporting the amount of that 
space and whether its controls are effective to prevent 
unnecessary cost to the government.
    GSA has also experienced significant challenges in 
operating its Technology Transformation Services and its Office 
of 18F, both core components in its effort to transform the way 
government builds and buys information technology. My office's 
reports in this area over the last two years found significant 
weaknesses in 18F's financial management, management failures 
that led to routine disregard of fundamental security 
requirements, and retaliation against the former commissioner 
of the Federal Acquisition Service for protected disclosures 
about the operations of TTS.
    In June 2017, GSA transferred Technology Transformation 
Services to the Federal Acquisition Service and has since taken 
other steps to address the findings in our reports. While we 
are encouraged by this responsiveness to our recommendations, 
we urge GSA moving forward to ensure strong management and 
financial oversight of the Technology Transformation Services 
and address challenges arising from frequent leadership changes 
and high staff turnover.
    Finally, the most recent evaluation of GSA's compliance 
with the Federal Information Security Modernization Act found 
that GSA's Information Security Program was not effective. We 
highlighted GSA's challenge of prioritizing cyber security and 
our management challenges, and our numerous reports in this 
area include findings of security vulnerabilities in GSA 
systems containing procurement-sensitive data, breakdowns in 
compliance with information security requirements, 
unintentional mishandling of personally identifiable and 
sensitive building information, and ineffective agency 
responses to reported information breaches.
    GSA is taking steps to improve its security posture but 
must do more.
    I look forward to continuing my office's work with GSA and 
with this committee to address the management challenges the 
agency faces.
    This concludes my prepared statement, and I would be 
pleased to answer any questions you may have.
    [Prepared statement of Ms. Ochoa follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]    
    
   
    
    Mr. Meadows. Thank you so much for your testimony.
    The Chair will recognize himself for 5 minutes for a series 
of questions.
    Ms. Murphy, let me come to you. The Ranking Member has, in 
a less than passionate way, I guess, expressed his displeasure 
with the FBI decision. So what do you say in response to that? 
I mean, at what point is Mr. Connolly's concerns not on the 
mark?
    Ms. Murphy. Thank you very much for the question, Mr. 
Chairman. I have been in this role for about 63 days now, so I 
want to refer the question to Commissioner Mathews, who has 
been intimately involved with the FBI. What I will say is that 
all decisions that we made were made at the direction of the 
FBI and their program requirements.
    Mr. Meadows. Hold on, hold on. Before we go to you, Mr. 
Mathews, what you are saying is that the FBI determined that 
they wanted to be in Washington, D.C., and that is why you made 
the decision?
    Ms. Murphy. The FBI changed its program requirements from 
what the original ----
    Mr. Meadows. What expertise does the FBI have in real 
estate?
    Ms. Murphy. They have better expertise when it comes to 
their own security requirements than GSA does.
    Mr. Meadows. Well, wouldn't there be a stronger argument 
for security outside of Washington, D.C. in terms of the 
footprint versus inside of Washington, D.C., Ms. Murphy? You 
are talking to somebody who understands real estate extremely 
well. I don't know that there is a whole lot of expertise in 
the FBI. I would trust them with law enforcement and national 
security issues. I don't know that I would trust them with real 
estate matters. If your sworn testimony is that the FBI 
directed you to do that, I have problems with that.
    Ms. Murphy. The FBI partnered with us when they came back 
to us and had reduced requirements for space. They were looking 
for a consolidation for 8,300 people rather than, I believe, 
10,600.
    Mr. Meadows. Mr. Mathews, do you want to illuminate why 
this decision was made?
    Mr. Mathews. Yes, I would be happy to, Mr. Chairman. So 
what the FBI ----
    Mr. Meadows. And do you stand by it?
    Mr. Mathews. By the decision?
    Mr. Meadows. Yes.
    Mr. Mathews. Yes, yes. So, the FBI's role in this--I think 
it is important to talk about this. The FBI's role in this is 
in defining their mission requirements, not in the real estate 
solution but in the mission requirements. How many people do 
they need to house in their headquarters facility?
    Mr. Meadows. And so did the number of people change in the 
last ----
    Mr. Mathews. Yes, it did. It changed significantly. It 
dropped from 10,600 to 8,300.
    Mr. Meadows. So what you are saying is that because it 
dropped from 10,000-plus to 8,000, you could move them from 
Virginia or Maryland into Washington, D.C.?
    Mr. Mathews. Yes, that is the critical mission requirement 
element. If the requirement was for 11,000 people, then the 
Pennsylvania Avenue location is not in play. We are not able to 
put 11,000 on that site with the density that they would be 
willing to tolerate.
    Mr. Meadows. So did they adjust their mission requirement 
based on the fact that they wanted to stay in Washington, D.C.? 
I mean, why did it change from 10,000 to 8,000? Did we fire 
that many people at the FBI?
    Mr. Mathews. No. So, I think it is important to understand 
where we started.
    Mr. Meadows. I am trying to understand. Let me just tell 
you, you have a very high bar to convince me, but go ahead.
    Mr. Mathews. So, the process began with the cancellation of 
the previous project, and there were very specific reasons why 
that was cancelled, because of the risk of the procurement 
itself. So if you recall, it was an exchange procurement.
    Mr. Meadows. So you are saying it is less risky to tear 
down a building in Washington, D.C. and build it back than to 
make a new acquisition, and you say that based on what?
    Mr. Mathews. The previous procurement involved an exchange. 
So as part of the payment for building this new campus, we 
would have ----
    Mr. Meadows. Are you saying that we couldn't sell that 
facility, Mr. Mathews?
    Mr. Mathews. It wasn't a sale, it was an exchange.
    Mr. Meadows. But, listen, I do exchanges all the time. Let 
me just tell you, you sell it, you exchange it, it is a 
distinction without a difference. Are you suggesting that this 
was a financial decision?
    Mr. Mathews. The cancellation of the procurement was a 
combination of insufficient funds in hand when the contract 
would have had to have been signed, and the fact that part of 
the payment for the new facility was handing over the Hoover 
Building. But without the complete funding to fill the gap 
between the ----
    Mr. Meadows. Well, based on that, you will never be able to 
do an exchange ever.
    Mr. Mathews. Well, we can if there is sufficient value in 
the property ----
    Mr. Meadows. So let me ask you this question. How many 
excess buildings does GSA have in their portfolio, surplus 
public buildings?
    Mr. Mathews. We have, I believe, 32 excess properties, 
designated excess, in our ----
    Mr. Meadows. In surplus, 32.
    Mr. Mathews. Thirty-two.
    Mr. Meadows. Where? Do you mean across the country?
    Mr. Mathews. Across the country. We provided a ----
    Mr. Meadows. Mr. Mathews, let me just caution you. This 
isn't my first rodeo. This is not my first hearing when it 
comes to surplus. You have staffers there. I would suggest that 
you go back and modify that, because I can tell you, if your 
sworn testimony here today is that there are only 32 surplus 
buildings in the entire Federal ----
    Mr. Mathews. No, not in the entire Federal inventory. In 
GSA's inventory, we have 32 properties that are designated as 
excess at this point in time.
    Mr. Meadows. How many in the Federal Government?
    Mr. Mathews. I don't have that list.
    Mr. Meadows. Well, if you don't have that list, how do you 
make a determination on where to move people if you don't know 
what surplus properties we have? How do you know what decisions 
to make in terms of leasing?
    Mr. Mathews. I just don't have it at my fingertips right 
now, government-wide. But when we are looking at new real 
estate solutions ----
    Mr. Meadows. But when you made the decision, did you have 
that number?
    Mr. Mathews. For the FBI?
    Mr. Meadows. No. I assume that you don't just do Federal 
acquisitions and leasing and purchasing just for the FBI.
    Mr. Mathews. No, of course.
    Mr. Meadows. So when you look at making a decision, and you 
are making that decision, how do you make that decision based 
on what is available, what is not available, what is used and 
what is not used? How do you make that decision?
    Mr. Mathews. So, you start off with a requirement from the 
agency, what do they need, what is their real estate 
requirement, the functional requirement. First we look at 
government-owned inventory, do we have something ----
    Mr. Meadows. So you looked at all the government-owned 
inventory, whether it is under GSA or under another agency, 
OMB? Because I know OMB has one component, you have another, 
which I have never figured out why we do that, but go ahead.
    Mr. Mathews. So we will have a particular geographic area 
that we are looking at for an agency's requirement. So we will 
survey first the government-owned inventory, first our own 
inventory, then the government-owned inventory, and if we can't 
meet it in a government location, then we will look at private 
inventory.
    Mr. Meadows. Okay. My time has expired, so here is what I 
would ask you, Mr. Mathews, and you, Ms. Murphy, to do. I need 
you to get us accurate numbers on the number of surplus 
properties and under-utilized properties that are out there, 
not just with GSA but across the Federal Government, because 
you cannot make the kind of decisions you are making without 
knowing those numbers. I can guarantee you it is more than 32.
    Mr. Mathews. It absolutely is more than 32.
    Mr. Meadows. Okay.
    I will recognize the Ranking Member for a generous 5 
minutes.
    Mr. Connolly. I thank my friend, and thank him for his line 
of questioning.
    Let me pick up where the Chairman was questioning, Mr. 
Mathews. And, Ms. Murphy, I respect that in 63 days we are not 
going to hold you responsible for previous decisions.
    I will ask you to confirm, you and I met privately. You 
made a commitment to me in that private meeting that you would 
respond to all congressional requests and continue to 
communicate with Congress. Do you now, under oath in this 
hearing, reiterate that commitment?
    Ms. Murphy. I do. In that meeting I also told you there 
were certain documents I understand that you had requested that 
are subject to a lawsuit, and those are out of my hands.
    Mr. Connolly. I understand.
    Ms. Murphy. But we are going to do everything we can to get 
you the information that you need.
    Mr. Connolly. I take you as a woman of honor, and I take 
your commitment just now, and I thank you for it.
    Ms. Murphy. I would also say in that meeting you suggested 
I go out and see the Lorton facility, which had been prior 
surplus property.
    Mr. Connolly. Right.
    Ms. Murphy. I went out there this past weekend. I very much 
enjoyed seeing it and ----
    Mr. Connolly. Good.
    I think what Ms. Murphy is referring to in our 
conversation, Mr. Chairman and my colleagues, I referred to the 
Lorton site, the old Washington, D.C. prison site, as a great 
model of how GSA can be a force for good in the community, and 
it was a win-win kind of decision that we have repurposed the 
property, and the community has benefitted. GSA, I think, 
showed a lot of vision and foresight.
    Ms. Murphy. They did a beautiful job incorporating historic 
elements, adding new community ----
    Mr. Connolly. And I am so glad you went out. Thank you, Ms. 
Murphy. I knew I could count on an Irishwoman.
    [Laughter.]
    Mr. Connolly. By the way, it is only 30 days to the holy 
day, St. Patrick's Day.
    [Laughter.]
    Mr. Connolly. All right. So, Mr. Mathews, you are under 
oath. The Chairman asked you about the FBI, and your testimony 
is they changed their mind. Is that right?
    Mr. Mathews. They changed their program requirements, yes.
    Mr. Connolly. They changed their program requirements. 
Well, let me call it changing their mind, because under a 
previous GSA document it quoted the FBI as saying, ``It 
identified''--FBI--``the need to consolidate its headquarters 
to support information sharing, collaboration, and 
integration,'' and then went on to say, ``FBI current 
headquarter elements, because they are not consolidated, have 
become fragmented, which hampers information sharing and 
collaboration.''
    So, in other words, this is a functionality issue by having 
it dispersed. There is a benefit in having it consolidated. You 
are saying that has changed.
    Mr. Mathews. What I am saying is the FBI reduced that 
consolidation ----
    Mr. Connolly. You are going to have to speak into the 
microphone, Mr. Mathews.
    Mr. Mathews. I am sorry. What I am saying is the FBI 
reduced that consolidation from 10,600 ----
    Mr. Connolly. When did it do that?
    Mr. Mathews.--to 8,300.
    Mr. Connolly. Right, almost 3,000 change. But, of course, 
the reason for that presumably is because you decided not to 
have the swap and the turnkey and develop a different campus 
that could accommodate the larger number but to stay in the 
current footprint, which cannot accommodate the larger number. 
Isn't that a logical conclusion?
    Mr. Mathews. I think the order was different, but it does 
allow for that, yes.
    Mr. Connolly. Yes.
    Mr. Mathews. The reduction was not ----
    Mr. Connolly. So now we are going to allow continued 
dispersement and fragmentation that the FBI told you in your 
own document provided to this committee affects its 
functionality, information and collaboration. Those are pretty 
important things in an era where we are fighting terrorism, 
Russian interference in elections, cyber attacks and the like. 
Those are not trivial issues. So they are going to continue to 
be affected according to the document your own agency provided 
us quoting the FBI.
    Mr. Mathews. Well, the FBI would be in a better position to 
answer that aspect ----
    Mr. Connolly. Yes. I assure you, we will get to that. Right 
now you are here, and you are under oath, and I want to make 
sure we have it understood, you are testifying the FBI told you 
that. They changed their mind, or in your word they changed 
their program direction.
    Mr. Mathews. Yes. They reduced the requirement ----
    Mr. Connolly. When did they tell you that?
    Mr. Mathews.--but that is an increase ----
    Mr. Connolly. Right. When did they tell you that? When were 
you informed they had changed their mind such that you pulled 
the procurement?
    Mr. Mathews. Well, that procurement was cancelled before 
that took place ----
    Mr. Connolly. Oh.
    Mr. Mathews.--and before I was there, but ----
    Mr. Connolly. So GSA decided to pull the procurement 
without that input from the FBI. So you actually pulled the 
procurement still believing the FBI felt otherwise, that the 
FBI wanted that consolidation and wanted the turnkey deal where 
we have a land swap.
    Mr. Mathews. The procurement was cancelled because there 
was insufficient funds in hand to sign the contract, and the 
fact that that contract ----
    Mr. Connolly. Insufficient funds, that is another one. So 
the GSA asserted at the time that insufficient funds meant 
Congress wasn't willing to appropriate money. What is the 
objective evidence of that? Because I know the Chairman and my 
colleagues probably remember Senator Mikulski at the time 
actually got an appropriation I don't think you had even 
requested as a down payment. So we were willing to provide the 
funding to finance this deal over and above whatever financing 
the private sector was able to provide in the sale of the FBI 
headquarters site.
    Mr. Mathews. The issue at hand was signing the contract 
without having the funds in hand. This is not a matter of ----
    Mr. Connolly. No, Mr. Mathews, let's deal with GSA's 
statement. GSA made the statement ``because Congress wouldn't 
appropriate the funds,'' and I find it strange, if that is what 
you believed, that you would now come back to us in this fiscal 
year budget asking for $2.2 billion. Do you have faith in 
Congress appropriating or not? If you do, then the previous 
explanation is false. And if you don't, then the current 
request is meaningless and feckless. Pick one.
    Mr. Mathews. I would question the presumption that--the 
fact that when you are actually signing a contract, you are 
obligating the Federal Government to certain activities and 
expenditures, and there was not sufficient funds at that point 
in time when combined with the procurement involved ----
    Mr. Connolly. What would have been sufficient, Mr. Mathews? 
I am curious.
    Mr. Mathews. We would have needed--I believe it was about 
$2 billion extra than what we had.
    Mr. Connolly. So Congress should have appropriated $2 
billion, and it didn't? Did you ever request a $2 billion 
appropriation?
    Mr. Mathews. The previous administration did not request 
that.
    Mr. Connolly. No.
    Mr. Mathews. It was less than that.
    Mr. Connolly. I see. Well, this starts to get Kafka-esque.
    One other issue, because I don't want to impose. My 
colleagues want to ask questions. But what about the security 
concern? One of the concerns raised about the current site is 
that given the sensitive nature of the FBI and the kind of 
world we live in, the urban setback just won't cut it. It 
actually poses a risk.
    Now, doesn't this decision to stay with the existing site 
fly in the face of that concern? Did that also go out the 
window? Did the FBI change its mind about that?
    Mr. Mathews. New construction ----
    Mr. Connolly. I'm sorry?
    Mr. Mathews. New construction, demolish and rebuild, as 
opposed to a renovation of the old building, allows us to 
incorporate significant security enhancements, to blast 
electronic eavesdropping ----
    Mr. Connolly. Mr. Mathews, so you are saying it is not a 
security concern.
    Mr. Mathews. What we are saying is we can meet the security 
requirements of the FBI ----
    Mr. Connolly. Well, that would come as news to the State 
Department that all over the world has been moving embassies 
and building new ones with deep setbacks to avoid any kind of 
security threat. So maybe you should talk to the State 
Department.
    Mr. Chairman, my time is up, but I am going to pose a 
thought to you, and maybe we can deal with it at the end of the 
hearing. We haven't had time to ask the Inspector General, but 
I think it would be a useful thing if this subcommittee 
requested formally a thorough review of this decision and how 
it got arrived at and the history, the sorry history of this 
procurement and the cost to the taxpayer and the private sector 
associated with this procurement, because I think this 
subcommittee needs to get to the bottom of this.
    This isn't a partisan issue. This is about process, and it 
is a very failed process and a very troubling one that I think 
will expose the FBI, if we go forward with the current 
proposal, to some real danger.
    Mr. Meadows. I thank the gentleman for his insightful 
questions. The Chair recognizes and will certainly look at the 
best approach going forward in working with Administrator 
Murphy and Inspector General Ochoa.
    Mr. Connolly. I thank the Chair.
    Ms. Murphy. If I may, we would be very happy to come and 
provide you with a detailed briefing. I believe we have 
actually reached out already to offer that.
    Mr. Meadows. I thank you. I thank Administrator Murphy.
    The Chair recognizes the gentlewoman from the District of 
Columbia for 5 minutes.
    Ms. Norton. Administrator Murphy, I sit on the other 
committee that has jurisdiction, direct jurisdiction over the 
GSA, so it has been pounded in my head ever since I have been 
in Congress that there were two basic principles when the 
government builds or leases: reducing the footprint, and we are 
taking extraordinary measures at the Department of Homeland 
Security right now to reduce the footprint because that was 
authorized before that policy; and consolidation. Those are two 
basic principles, and I am not sure there are any other 
principles that stand at that level.
    Here you have proposed exactly the opposite, and I ask you 
to square the circle with me. How do you reduce the footprint 
of the FBI by building separate facilities throughout the 
United States from the ground up and dismembering the FBI so 
that instead of consolidation, we are going in a direction that 
the agency has not gone in since it has been created? Why have 
you reversed those principles when it comes to the FBI?
    Ms. Murphy. Thank you, Congresswoman.
    Ms. Norton. Consolidation and reducing the footprint.
    Ms. Murphy. I am going to defer again to Mr. Mathews on the 
numbers, but it is my understanding--and he will correct me if 
I am wrong on this--that under the proposed demolish and 
rebuild, the per employee utilization rate for the FBI will --
--
    Ms. Norton. The what?
    Ms. Murphy. The footprint for the FBI will be smaller, and 
that they will be consolidated both within the Department and 
----
    Ms. Norton. But you have to spend more money if you have to 
build facilities in states which are far from one another, far 
from Washington. If you were going to do that, why would you 
take parts of the FBI and scatter them across the United 
States?
    Ms. Murphy. And I believe that the FBI identified those 
locations as places where they already have facilities and they 
could engage ----
    Ms. Norton. The point is consolidation. I don't know which 
facilities, and I wish you had named facilities. There may be 
FBI offices across the United States, but the notion that part 
of your headquarters is spread across the United States--I 
mean, that is the first time I have ever heard of that. Of all 
agencies, the FBI has parts of its headquarters already in 
states across the United States? What divisions of the FBI are 
across the United States that this consolidates for?
    Ms. Murphy. I believe it is some of the administrative 
functions that, just as within the GSA we have some of our 
administrative functions in the regions, they have some of 
their administrative functions ----
    Ms. Norton. Ms. Murphy, you don't have facilities in 
Alabama. What are these five states? How are these states 
chosen? Why, Mr. Mathews, have you reneged on the notion of 
consolidation? And why is it cheaper to build from the ground 
up than to consolidate, and with facilities in one place or as 
few places as possible?
    Mr. Mathews. I guess a couple of things. One is I would 
suggest the FBI is a component of the Department of Justice, so 
consolidated headquarters function of the Department of Justice 
includes the FBI and main Justice. Main Justice is across the 
street from the current location. So actually removing the FBI 
and putting it somewhere else actually ----
    Ms. Norton. I am asking you about the five states, Mr. 
Mathews. You don't have to school me on what the FBI does with 
the Justice Department. Why do you want to build this across a 
number of states in the United States rather than consolidate 
it, as is the principle that you well know you have abided by 
since your creation?
    Mr. Mathews. So again, this goes back to the FBI's mission 
requirements. But speaking, trying to explain what I understand 
of those, is they were looking to be able to move some of the 
people that are part of the headquarters function, 2,300, into 
these other existing FBI locations in Idaho, in Alabama, in --
--
    Ms. Norton. What is in Idaho and Alabama, Mr. Mathews?
    Mr. Mathews. I think in Idaho they have an explosives 
facility where they analyze ----
    Ms. Norton. What does that have to do with headquarters, 
putting parts of headquarters in Alabama?
    Mr. Mathews. My understanding is they would put some of 
their nuclear detection elements out there and some of the 
things ----
    Ms. Norton. Why is this less costly? One of the reasons the 
government favors consolidation is that it is the least costly 
way to build an agency. Why is it least costly to spread the 
agency across five different states?
    Mr. Mathews. Well, I guess one thing I would say, building 
a building, as opposed to building a campus, building the 
building is less expensive than building a campus. There are 
numerous components of a campus that bring additional ----
    Ms. Norton. Well, that is news to me, Mr. Mathews, because 
you have campuses throughout this region, and the notion that 
building a building is less than a campus rather than just the 
opposite, you will have to supply this committee with 
documentation for it. And again, you are tossing around words 
when you say building a building is--I mean, building a 
building, whether it is on a campus or not, a campus is simply 
a plot of land. The reason you want them in the same place is 
because you want the FBI headquarters --and understand, we are 
talking about headquarters here, aren't we, Mr. Mathews?
    Mr. Mathews. Yes, ma'am.
    Ms. Norton. We are talking about headquarters. If we were 
talking about different facilities, that would be one thing. We 
are talking about spreading the headquarters of the FBI across 
the United States, and I know of no headquarters of any agency 
spread across the United States.
    You took a hell of a lot more time than that.
    Mr. Meadows. The gentlewoman's time has expired.
    The Chair took a minute and 32 seconds extra. He gave the 
Ranking Member 2 minutes. He gave you a minute and a half. So, 
for the record, we have given you more time than our side, and 
I will now recognize the gentlewoman from Michigan, Ms. 
Lawrence, for 5 minutes.
    The gentlewoman from the District of Columbia knows that I 
consistently try to be fair in all regards with regards to 
this, and if she is suggesting that I wasn't, we will take that 
up at another time.
    The gentlewoman from Michigan is recognized.
    Ms. Lawrence. Thank you, Mr. Chair. Before I start my 
questions, I just want to say to Ms. Murphy that it was 
refreshing to hear that you actually understand what this 
committee is about and your commitment to continue to respond 
to our inquiries and understand the responsibility that we have 
as a committee. So I look forward to you keeping your word on 
that.
    Ms. Murphy. And you won't remember me, but I was a staffer 
at the Small Business Committee when you sat on the committee 
and very much enjoyed working with you back then. So, thank 
you, Congresswoman.
    Ms. Lawrence. Thank you.
    My question is--and allow me to take this to a personal 
level. So GSA in 2015 announced a plan to invest $70 million 
and consolidate many Federal offices. We had an office on 
Michigan Avenue, and in that process IRS said it would move 90 
jobs to Tennessee.
    Now, in 2015, the economy in the City of Detroit was one 
that was hanging on by a thread. So whereas some people would 
not respond to the Federal Government closing a building and 
moving out of the state, it was a major slap in the face, and 
the entire delegation, congressional delegation came together 
to urge the IRS to look at--because property was a bargain 
then--to look at existing properties, which you did, and we 
were able to keep those jobs in Detroit, and also for you to be 
able to find cheaper property.
    So I was really confused because I could never get an 
answer on why you just, in the middle there, said okay, we are 
moving these jobs and the IRS is going to Tennessee. And then 
we talked about the wasted millions of dollars on a project to 
relocate the FBI headquarters--I think you see our concerns--
and then you cancel that move.
    So my question is what kind of study is put forward? And I 
would like to talk to the FBI again about that. But do you, 
Administrator Murphy, do you look at the demographics of impact 
on community? Because I work for the Federal Government. You 
can be offered a job where it is going if you can't relocate. 
Sometimes you get severance pay if there is not another Federal 
job.
    What do you look at when you make these decisions? Because 
they seem to be so random or some covert actions that are 
happening, and GSA always backs up and never has a real answer. 
It is all this political gobbledy-gook. So talk to me about 
that.
    Ms. Murphy. Thank you, Congresswoman. Hopefully this won't 
be gobbledy-gook. So when GSA--the first step in any 
consolidation is that agencies come to GSA with a program of 
requirements. They tell us what they need. We will proactively 
outreach to some agencies to say we think we can help them 
consolidate within space or they have a lease that is about to 
expire, to try to get them to better identify that program's 
requirements early so that we can be a good partner with them.
    At that point in time Mr. Mathews' organization, the Public 
Buildings Service, works with them to take that program of 
requirements, you come up with a delineated area where those 
requirements could be met.
    Do you want to go further into the details of ----
    Ms. Lawrence. Mr. Mathews, when you are answering that 
question, no one had talked to us as a community, and once we 
reacted and demanded and talked, we were able to satisfy that 
need. So that is why there is that disconnect. If you had said 
whatever your needs were in that community--but no, you came to 
us and said we are moving the jobs to Tennessee.
    Mr. Mathews. So, I am not familiar with the details of this 
particular example you are describing. I have been in the 
position since August. But I understand that the IRS over the 
past several years has basically had a massive restructuring of 
their workforce, their locations. They closed a number of their 
facilities. And I know in Detroit there was one of their key 
processing facilities was located in Detroit. I know I have 
actually been out to that facility, which the government 
bought, interestingly enough, for a dollar. It was a leased 
facility, and we had a purchase option for one dollar, and the 
government actually acquired it at the end of the lease. So the 
government is re-using that facility for some other federal 
agencies that are in the area.
    But I do believe the IRS, they have closed a number--they 
have basically consolidated their processing functions. Tax 
returns have been largely paper-based for years. Now they are 
mostly electronic. So they have restructured their tax 
processing units, and I think that is what drove those changes.
    Ms. Lawrence. My time is running out, and this is what I 
want to be really clear about. Your moving around just because 
someone randomly says I want to consolidate, so I am just going 
to pick up, there are communities that are affected when you 
make these decisions. Had we not had the desire and the passion 
to come to you and demand and offer you other options, it 
wouldn't have happened, that one dollar sale. So there is a 
gap. There is something missing, and we need to incorporate 
that, Ms. Murphy and Mr. Mathews, when we start talking about 
uprooting and moving Federal offices without any consideration 
for local government.
    Thank you, and I yield back.
    Mr. Meadows. I thank the gentlewoman.
    The Chair recognizes the gentleman from Missouri, Mr. Clay, 
for 5 minutes.
    Mr. Clay. Thank you, Mr. Chair. Let me welcome a fellow 
Missourian, Ms. Murphy, to the committee. Is this your first 
time before us?
    Ms. Murphy. This is my first time as Administrator before 
this committee. I testified here probably 11 or 12 years ago 
once, as well.
    Mr. Clay. Well, as a fellow Missourian, let me say welcome.
    Ms. Murphy. Thank you.
    Mr. Clay. We do intend on fulfilling our obligation as 
oversight.
    Ms. Murphy. The Show-Me State, I expect nothing less.
    Mr. Clay. And I look forward to working with you.
    [Laughter.]
    Mr. Clay. You know, Ms. Murphy, this week GSA announced its 
baffling decision to build a new FBI headquarters at the 
inadequate site of the current J. Edgar Hoover Building. It is 
baffling because GSA itself had concluded that the current site 
was too small to allow the agency to consolidate its operations 
and that there were serious national security risks with 
staying at the current site.
    GSA's own Building Project Survey said, and I quote, ``Key 
FBI headquarters elements have become fragmented, which hampers 
information sharing and collaboration. The FBI has identified a 
need to consolidate its HQ to support information sharing, 
collaboration, and intergration of strategic priorities.''
    Ms. Murphy, every other agency in the intelligence 
community--CIA, DIA, NSA, and Homeland Security--have large 
campuses where they consolidate their operations to prevent 
both physical threats as well as spying. Why has GSA denied FBI 
that same ability?
    Who wants to take it?
    Ms. Murphy. Is it all right if I defer to Mr. Mathews? He 
was much more involved.
    Mr. Clay. I had a few questions for him anyway.
    Ms. Murphy. Okay.
    Mr. Clay. But go right ahead, Mr. Mathews.
    Mr. Mathews. Yes, Congressman. The first thing I would say, 
there is a consolidation going on. In fact, the FBI 
consolidation onto this location will grow from the current 
roughly 5,600 people to 8,300. That is almost a 50 percent 
increase in the number of FBI personnel that will be located 
and consolidated into this proposed demolish rebuild. So there 
will be a consolidation of FBI employees as a significant 
increase in the headquarters head count in this program.
    Mr. Clay. Okay. Mr. Mathews, you dedicated 20 years of 
service to the U.S. House of Representatives, and I am sure 
that you are aware that for more than a decade GSA planned to 
build a new consolidated FBI campus outside of the District of 
Columbia, and this was a huge undertaking for the entire 
government.
    This week GSA announced its decision to build a new FBI 
building on the current site. Can you explain what appears to 
be an inconsistent position?
    Mr. Mathews. Yes, you are right, I have been involved in 
this from the congressional perspective for well over a decade. 
And you are correct, the previous plans were for a larger 
consolidation, a larger requirement of 10,600. When the 
requirement was 10,600 employees for the FBI, that is not going 
to fit on Pennsylvania Avenue. It necessitated a different 
location, a larger footprint. But with a smaller number of 
required people for that facility, that put other sites into 
play, not just the current site but other sites as well, and 
there are distinct advantages to the current site when you have 
this small a footprint.
    For example, the transportation network that exists at this 
site--Metro, the road networks--they are already there. The 
infrastructure that would serve that facility, particularly the 
classified communication cables and things like that, which are 
very costly to replace, those exist there already. The utility 
fees exist there, the water systems. The basic infrastructure 
that feeds that facility, which is expensive to replicate, is 
already there.
    And from the FBI's perspective, their employees, they live 
all around the Beltway. If they relocated to one particular 
site on the Beltway, no matter where it ended up, they would 
put a large portion of their employees in a difficult commuting 
situation, and I know that was an important issue for the FBI, 
their employees' positions.
    So it is the reduced head count that made it possible to 
stay at that location. And again, like I said, there are very 
distinct advantages to that.
    Mr. Connolly. Would my colleague yield for a second?
    Mr. Clay. Well, I am out of time. Perhaps the Chair would 
let us do a second round?
    Mr. Connolly. I would just say to my friend from Missouri, 
that is an extraordinary explanation, and it makes sense only 
if the previous six years did not exist. It flies in the face 
of everything GSA and the FBI argued for the last six years. 
Now we have a new--forget all that, it is a new explanation. 
And, oh, by the way, physical security has to be discarded on 
the current site.
    I thank my friend.
    Mr. Clay. I thank my colleague for those comments, and I am 
out of time, but I yield back.
    Mr. Meadows. I thank the gentleman for yielding to the 
Ranking Member on the time that he didn't have.
    We will recognize the gentleman from Iowa, Mr. Blum, for 5 
minutes.
    Mr. Blum. Thank you, Mr. Chairman.
    Thank you to our panelists for being here today.
    I just assured my colleague, Mr. Connolly, that I would not 
ask anyone on the panel today about cows, since I am from Iowa, 
so you can relax.
    [Laughter.]
    Mr. Connolly. I was hoping you would ask about cows.
    [Laughter.]
    Mr. Blum. There is a story there, obviously. We don't have 
time to get into that.
    Late last year we received from GSA the following, that 
there are 108 time and attendance systems, 86 learning 
management systems, and 46 financial management systems within 
the Federal Government. I am a career small businessman, not a 
career bureaucrat. Duplication of services I have to believe is 
a big issue in the Federal Government. This committee deals 
with waste, fraud, and abuse. If you want to talk about the 
waste, it is the duplication of all of these services.
    In the private sector, when we have an acquisition, for 
example, and the combination of two companies, one of the first 
things that we look at is to eliminate duplication. We don't 
need two accounting departments, we don't need two computer 
systems that do payroll, and there are efficiencies gained 
there.
    The Federal Government, this has to be an issue. So I think 
I would direct this to Ms. Murphy, and also Mr. Thomas. Talk to 
me, please, about GSA and the role you are playing in the 
shared services model, which I think is a great thing, is very 
important, can save taxpayers a lot of money. How do we get rid 
of duplication services?
    Ms. Murphy. Thank you very much, Congressman. Reducing 
duplication is one of the four principles that I have set out 
for GSA while I am in my current role. I believe that Beth 
Engelman with the Unified Shared Services Management Group at 
GSA actually testified before this committee over the summer. 
She has been doing wonderful work with her team to partner with 
other agencies, identify requirements, looking at solutions 
that could get us to core systems where we could reduce that 
duplication.
    It is bearing fruit. We went out with a draft Request for 
Proposals for payroll systems last month. We have gotten a lot 
of feedback on that. We are working through that. We hope to go 
out with a final RFP soon so that we can engage in an open, 
transparent, competitive process so that we can better meet the 
needs of Federal agencies and reduce duplication on payroll. We 
see that as just the beginning of the process, though.
    As we are working on that contract vehicle which ties in 
very nicely with what Mr. Thomas is doing, it also then gives 
us the opportunity to start analyzing additional systems, be it 
time and attendance, financial management, contract writing 
systems, so that we continue to search for ways we can reduce 
duplication.
    If you look at the entire mission of GSA, the Public 
Buildings Service is about having a shared service on Federal 
space. The Federal Acquisition Service is a shared service 
around acquisition. So we see it as absolutely consistent with 
the mission of the agency to help agencies reduce this 
duplication.
    Mr. Blum. We could reduce the cost of purchasing as well, 
couldn't we? Instead of buying 68 duplicative systems, we buy 
one.
    Ms. Murphy. The fewer contracts--we want to make sure that 
we have the appropriate number of contracts, that we always 
have competition and we always have redundancy, because we 
don't want to find ourselves in a situation where you only have 
one system and something goes wrong, and then we have a 
workforce at risk or we have a system at risk. So we need to 
make sure there are always multiple options. But I do think 
that, yes, rather than having 108 time and attendance systems, 
if the Federal Government had three or four that it could work 
off of, it would make a lot more sense.
    Mr. Blum. How bad is it? Give me a grade, would you please?
    Ms. Murphy. Oh.
    Mr. Blum. Be honest ----
    Ms. Murphy. I would prefer to grade GSA rather than to 
grade other agencies, if that is all right with you. So within 
GSA, we have a lot of ----
    Mr. Blum. I just mean the Federal Government in general. 
Give me the duplication of services. How bad is it?
    Ms. Murphy. There is a fair amount of duplication. We have 
made some progress with lines of business and consolidating 
financial management, but there is a lot of work to be done, 
and I think it is not going to be a one-year quick win. It is a 
long-term effort. I know that the Chairman has been very 
supportive of the work that we are trying to do on shared 
services, and it is going to require--I will give you another 
example.
    The telecommunications contract that Mr. Thomas' office has 
just released gives us the opportunity to further consolidate 
telecommunications services within the government, just a great 
opportunity of ways we can get reductions. The fleet, one of 
our performance initiatives for next year is looking at, 
studying, and then reducing the number of fleet vehicles 
government-wide, see if we can save money by reducing them.
    Alan, I think you have good statistics on how much we can 
save that way?
    Mr. Thomas. Sure. Thanks, Emily.
    So, on fleets, there are about 600,000 vehicles in the 
Federal fleet. GSA centrally manages about a third of the 
fleet, so 200,000 vehicles. Based on Fiscal Year 2015 numbers, 
we think, on average, we can manage a vehicle about $2,500 a 
year more efficiently than an agency-owned asset is managed. So 
there is some significant savings there government-wide if you 
were to consolidate some of the fleet that is managed at the 
agency level currently.
    Mr. Blum. If the Chair would indulge me, could I add one 
quick add-on question?
    Mr. Meadows. Very quick follow-up, yes. Thank you.
    Mr. Blum. What incentives are there for the Federal 
Government to try to reduce duplication? What incentives are 
there for the rank and file Federal Government employees to 
save the taxpayer money?
    Mr. Meadows. Try to answer that succinctly, if you could.
    Mr. Thomas. If you are the CFO of an agency, or your 
mission, say, at USDA is to ensure the safety of the food we 
eat, and you are spending too much money on vehicles and you 
are not spending enough money on inspectors, the fact that we 
could come in and save you some additional dollars on vehicles 
and you could maybe put that money towards mission I think is 
pretty compelling.
    Mr. Blum. Thank you, Mr. Chairman.
    Mr. Meadows. I thank the gentleman from Iowa.
    The Chair recognizes the Ranking Member, Mr. Connolly, for 
a few items that he wanted to bring up.
    Mr. Connolly. I thank the Chair.
    Mr. Thomas, this committee sent you and your predecessor, 
Rob Cook, two letters, one addressed to you, one addressed to 
him, dated August 30th, with a series of follow-up questions 
from the hearing. We have not, six months later, received a 
response. Any reason why?
    Mr. Thomas. We are still coordinating internally on the 
response. I asked the same question as we were preparing for 
the hearing. We are diligently working on getting you responses 
to those questions.
    Mr. Meadows. How do you define diligent? I mean, if you are 
coordinating for six months, at what point can we expect 
answers to the gentleman's question?
    Mr. Thomas. I don't know if I am ready to commit to a 
specific date, but it is something that we are putting a focus 
on.
    Mr. Meadows. Okay, I will give you a day. In 14 days, we 
need an answer, okay?
    Mr. Connolly. To both letters.
    Mr. Thomas. Understood. Thank you.
    Mr. Connolly. I mean, Administrator Murphy, you can see 
what we are dealing with. I mean, that is why in our private 
conversation we had so much emphasis on communication and 
responsiveness. The position of some people representing GSA 
saying we will only respond to requests coming from the 
committee chair is absurd. It flies in the face of our 
oversight responsibilities. And, by the way, I assure you, my 
Republican colleagues will be a little nervous about that 
because should things change around here in November, they want 
the privilege of having inquiries answered by a Federal agency. 
And, by the way, they should. But so should we.
    So I understand there is some litigation, but I want to 
reiterate that I appreciate your commitment. But this is an 
example. Six months?
    Ms. Murphy. Sir, when I was with the Armed Services 
Committee, I put in a request in October of 2016 for a briefing 
from GSA. I was at GSA before I got the briefing. So I know I 
have a problem, and we are working to ----
    Mr. Connolly. We need your help, yes. And I think that 
would be a great piece of your legacy, to clean it up.
    Mr. Thomas, I have to tell you, I think on a bipartisan 
basis, the idea that you have had six months and you won't 
commit to a time, how long it will take to actually answer 
fairly straightforward questions based on a hearing that was 
over six months ago, is just unacceptable, I mean even for 
government. That is just not an answer the Chairman or I could 
possibly live with, and I thank the Chair for setting a 
deadline, and I think it does underscore the problem of 
responsiveness and communication in GSA, and it makes your job 
harder, and it makes our job harder.
    Finally, with respect to the FBI headquarters--and you have 
heard from my colleagues, including the representative of the 
District of Columbia where it is headquartered--all I can say, 
Mr. Mathews, is I just do not feel your answers hold up. I 
think they contradict, as I said, six years of laying the 
groundwork for a different rationale for where it ought to be 
located, the value of consolidation, the danger of lack of 
consolidation, and the legitimate physical security concerns. 
The rationales coming out of the GSA do not add up, whether it 
is we didn't have the money because Congress wouldn't 
appropriate it, or the FBI has changed its mind.
    I am going to discuss this with my colleague, the Chairman, 
and we will see how we proceed, but at some point we are going 
to want to see the documents, contemporaneous documents from 
the FBI that gave you a different direction. But this is not a 
good moment for the GSA. What I really worry about besides 
process is the mission of the FBI and how it could be impeded, 
frankly, by this decision.
    So you haven't heard the last of this from me, from Ms. 
Eleanor Holmes Norton, from Chairman Meadows and others. We 
will revisit this issue at the appropriate time.
    I thank the Chair for his indulgence.
    Mr. Meadows. I thank the gentleman.
    The Chair recognizes himself. I want to kind of conclude 
with a couple of things.
    Inspector General, I want to say thank you for being here. 
I don't want to ignore the fact that your presence here and the 
lack of questions is any indication, as you know. I am a huge 
fan not only of the Inspector Generals, plural, but of this 
particular Inspector General specifically and the work that 
your group does.
    Here is what I would like to ask of you. I would like the 
top four recommendations that you would have that either have 
been met with a lukewarm reception from GSA's perspective, or 
four that have been rejected and that you see as having the 
most significant impact on a variety of issues. If you could 
get that to the committee in the next 30 days, is that 
something that you could do?
    Ms. Ochoa. Be happy to do that, Chairman Meadows.
    Mr. Meadows. All right. And I want to, for the record, 
express sincere appreciation to your entire staff for the work 
that they do on an ongoing basis. As we all know, the GSA, 
because of one photograph, has probably a very different 
impression. It came from obscurity into a position of very--
well, it made the news, and your involvement certainly in 
trying to correct that is acknowledged.
    I also want to acknowledge the staff that we have here that 
have done a great job. There are a variety of additional 
questions that we will need all of you to answer for the record 
as they have prepared them and done a good job.
    Administrator Murphy, I want to hit on one area, because in 
the NDAA we talked about the e-portals that would actually 
start addressing and allowing us to be competitive with that. 
It is my understanding that you have a March deadline due to 
Congress in terms of the progress of that. Are you going to 
actually make that deadline?
    Ms. Murphy. I have reviewed the draft report and approved 
the draft report at this point. So we are in the process of 
clearing it with other agencies and making sure that is 
correct. We have been trying to make sure that that is the 
beginning of a conversation. We had 200 industry participants 
come to GSA to meet on the issue, another 300 participate 
virtually, so we are taking that opportunity seriously.
    Mr. Meadows. So yes or no, will you meet the March 
deadline?
    Ms. Murphy. We will meet the March deadline.
    Mr. Meadows. All right. Thank you.
    And then finally I would like to ask on that aspect, we 
talked about really the FASTA guidelines, and then you have 
this kind of internal infrastructure. Are those working hand in 
glove, or are they competing with one another? I am not sure 
exactly--in your testimony you talked about an infrastructure. 
Is that working hand in glove with FASTA or not?
    Ms. Murphy. It is working hand in glove with FASTA. So a 
lot of the work we have been doing in preparation for the board 
being sat is in place. It also means that we are continuing to 
work on our own processes. The requirement, for example, for 
the database has made it much easier for GSA to do its own work 
as well.
    Mr. Meadows. Okay. So I am going to conclude with this. 
There is much work to be done in terms of surplus properties. 
Mr. Mathews, the 32 number is, I can tell you based on GAO 
reports, based on previous reports from the GSA and OMB, it is 
just nowhere in the ballpark. So I need accurate numbers there.
    Administrator Murphy, you have a previous staffer from here 
that actually worked on my subcommittee, Mr. Post, who I want 
to acknowledge here today. He is a great asset, I am sure, to 
you, as he was to us, but he will also tell you that I will not 
let this rest as it relates to the FBI building and the 
decisions that were made there. This is a bipartisan issue, and 
I can tell you that before you proceed ahead, this committee 
wants to know all the decisions that went into making the new 
decision that has been announced. I don't agree with it. I can 
be convinced, but at this particular point, based on the 
information in this hearing, I am not convinced.
    So I would like a briefing and a follow-up in a bipartisan 
manner on this particular issue.
    If there is no further business before the Subcommittee on 
Government Operations, this committee stands adjourned.
    Ms. Norton. Mr. Chairman, could I ask a status question?
    Mr. Meadows. Certainly.
    Ms. Norton. I would also like you to get to the Chairman a 
timeline for the consolidation that Congress did mandate and 
that you are doing, the largest Federal project in the United 
States, the Department of Homeland Security, to make sure that 
the GSA is on its timeline for a project which exemplifies 
consolidation, as the FBI does not.
    Mr. Meadows. And I would concur with the gentlewoman from 
the District of Columbia. If you can give the committee, both 
minority and majority, an update on that, that would be good.
    If there is no further business before the committee, the 
committee stands adjourned.
    [Whereupon, at 11:16 a.m., the subcommittee was adjourned.]


                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record
               
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]               
               

                                 <all>
</pre></body></html>
